           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



   GOVERNMENT PENSION OFFSET
   EXEMPTION FOR TEXAS SCHOOL
      DISTRICTS’ EMPLOYEES


    January 2007   A-09-06-26086




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                               SOCIAL SECURITY
MEMORANDUM

Date:      January 8, 2007                                                     Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Government Pension Offset Exemption for Texas School Districts’ Employees
           (A-09-06-26086)


           OBJECTIVE
           Our objective was to determine whether beneficiaries who were previously employed by
           certain Texas school districts were exempt from Government Pension Offset (GPO).

           BACKGROUND
                                                          1
           Under section 218 of the Social Security Act, individuals employed by State and local
           governments are not covered by Social Security unless the government entity has
           entered into a voluntary agreement with SSA. These agreements include the
           provisions, definitions, and conditions required for Social Security coverage. In
           addition, Social Security benefits for a spouse or surviving spouse are generally
           reduced for individuals who receive a monthly pension from a State or local government
           agency. However, this offset did not apply if an individual’s last day of employment was
           in a position that was covered by both Social Security and a State or local government
           pension plan. The offset exemption applies only to those individuals whose last day of
           employment was before July 1, 2004. 2 The Social Security Protection Act of 2004 3
           subsequently amended the GPO provisions to require that State and local government
           employees be covered by Social Security throughout their last 60 months (5 years) of
           employment to be exempt from GPO.




           1
               The Social Security Act § 218 (a)(1), 42 U.S.C. § 418 (a)(1).
           2
               SSA, Program Operations Manual System (POMS), GN 02608.102.
           3
               Pub. L. No. 108-203 § 418.
Page 2 - The Commissioner

In October 2005, we received an allegation that approximately 22,000 individuals who
retired from 15 Texas independent school districts before July 1, 2004 may have been
improperly exempted from GPO because they did not meet the last day of employment
provision. Specifically, the allegation stated the 22,000 individuals paid the school
districts fees to work for 1 day as a non-professional employee. According to the
allegation, the improper exemptions granted to these individuals will cost the
Social Security Trust Fund $2.1 billion.

Although the allegation identified 15 school districts, we limited our review to the
7 school districts that hired the largest numbers of 1-day workers: West, Hudson,
Lindale, Premont, Coleman, Sweeny and Kilgore. According to the allegation, these
7 school districts hired approximately 19,000 (86 percent) of the 22,000 1-day workers
(see Appendix B for a discussion of our Scope and Methodology).

RESULTS OF REVIEW
We found that individuals employed as 1-day workers by the seven Texas school
districts did not appear to meet the requirements to receive a GPO exemption. This
occurred because of the questionable nature of these individuals’ employment. We
also found that five of the school districts did not have the authority to provide these
individuals Social Security coverage.

We identified 20,248 individuals who were employed as 1-day workers by the 7 school
districts. Based on our review of a random sample of 665 of these individuals, we
determined that 629 4 should not have been exempt from GPO. Projecting our sample
results to the population, we estimate that 19,212 individuals will receive $110 million in
spousal benefits annually to which they may not be entitled. Over their lifetimes, they
will potentially receive about $2.2 billion in spousal benefits (see Appendix C).

QUESTIONABLE EMPLOYMENT

Our review disclosed that the seven school districts hired 1-day workers primarily to
generate revenue for their districts. Specifically, officials at six of the school districts
stated they would not have hired all the 1-day workers if they had not collected fees. In
addition, we found the number of individuals hired was primarily based on the number
of applications received rather than an actual need for their services.

Although the individuals hired as 1-day workers were generally paid minimum wage,
they paid fees to the school districts ranging from $100 to $750 each. We found that
the seven school districts collected approximately $7.4 million in fees from their 1-day
workers, while only paying them about $900,000. The following chart summarizes the
total fees collected and the wages paid by the seven school districts.
4
  Of the 665 individuals, 36 were not employed as 1-day workers. These 36 cases, included, but were not
limited to, individuals hired through the school districts’ normal hiring, individuals employed as substitute
teachers or student workers, and individuals who withdrew their applications for employment as 1-day
workers.
Page 3 - The Commissioner


      Fees Collected and Wages Paid by Seven Texas School Districts
      School             Number of         Total Fees Paid to     Total Wages Paid
      District         1-Day Workers        School Districts      to 1-Day Workers
  West                           1,860             $1,069,478               $62,273
  Hudson                         1,887                493,100                77,744
  Lindale                        4,313              1,335,205               177,696
  Premont                        2,186              1,052,035                87,440
  Coleman                        3,642                699,498               218,520
  Sweeny                         2,958              1,428,703               121,870
  Kilgore                        3,402              1,289,215               140,162
  TOTAL                         20,248             $7,367,234              $885,705

According to school district officials, they used the revenue generated by their 1-day
worker programs to pay the wages of the individuals hired, finance capital
improvements, and pay general expenses. The capital improvements included
resurfacing parking lots; constructing a new nurse’s station; building and installing new
seating and lighting for auditoriums; building a distance-learning center; and improving
the school board’s conference room.

Significance of GPO Exemption on Spousal Benefits

The GPO provisions only affect Social Security benefits paid to spousal beneficiaries.
Specifically, SSA must reduce spousal benefits for individuals who receive a pension
from a Federal, State or local government based on work where Social Security taxes
were not paid. The spousal benefits are generally reduced by two-thirds of the
government pension amount. The value of a GPO exemption is illustrated by the
following three examples we randomly selected from our sample cases.
    Example 1 – An individual who was previously employed by another school district
paid a $250 fee to work on June 18, 2002 in the Kilgore school district. The individual
was paid $41.20, from which $2.55 in Social Security taxes was withheld. The
individual filed for spousal benefits on September 1, 2005, became entitled to benefits
at age 62, and is receiving full spousal benefits of $288.80 with no offset for their
monthly government pension of $2,177.50. The $250 fee the individual paid was
recovered by the value of the GPO exemption for 1 month of spousal benefits. Had
SSA imposed GPO, the monthly spousal benefit payable would have been reduced to
zero.
    Example 2 – An individual who was previously employed by another school district
paid a $200 fee to work on June 11, 2002 in the Coleman school district. The individual
was paid $60.00, from which $3.72 in Social Security taxes was withheld. The
individual filed for spousal benefits on January 15, 2002, became entitled to benefits at
age 64, and is receiving full spousal benefits of $623.60 with no offset for their monthly
government pension of $330.68. The $200 fee the individual paid was recovered by
Page 4 - The Commissioner

the value of the GPO exemption for 1 month of spousal benefits. Had SSA imposed
GPO, the monthly spousal benefit payable would have been reduced to $403.10.
    Example 3 – An individual who was previously employed by another school district
paid a $500 fee to work on June 3, 2004 in the Sweeny school district. The individual
was paid $41.20, from which $2.55 in Social Security taxes was withheld. The
individual filed for spousal benefits on September 27, 2004, became entitled to benefits
at age 64, and is receiving full spousal benefits of $235.00 with no offset for their
monthly government pension of $1,052.93. The $500 fee the individual paid was
recovered by the value of the GPO exemption for less than 3 months of spousal
benefits. Had SSA imposed GPO, the monthly spousal benefit payable would have
been reduced to zero.

FIVE SCHOOL DISTRICTS DID NOT HAVE AUTHORITY TO PROVIDE SOCIAL
SECURITY COVERAGE TO 1-DAY WORKERS

We found that five 5 of the seven school districts did not have the authority to provide
their 1-day workers Social Security coverage. These five school districts had
agreements with SSA, pursuant to section 218 of the Social Security Act, that
                                                                                     6
precluded them from providing Social Security coverage to part-time employees.
Although school district officials stated they hired the 1-day workers for full-time
positions, we found there was no intent or expectation by either party that the
employment would last longer than 1 day.

The application packages provided to individuals interested in the 1-day worker
programs at three of the five school districts included letters stating, “In response to
your request, this packet is being mailed to you in order for you to work your final day in
the Texas Teacher Retirement System under the (insert school district name) as a
non-professional….” The fourth school district required that applicants submit a
resignation letter before their scheduled day of work. The fifth school district called its
1-day worker program the “…one day offset program for Social Security.”

Our review of 475 employees from these 5 school districts disclosed that 450 were
hired as 1-day workers. None of these 450 workers worked longer than 1 day. Since
these individuals did not intend to work more than 1 day and, in fact, did not work more
than 1 day, they were not in positions covered by Social Security on their last day of
employment. Therefore, they should not be exempt from GPO.




5
    West, Hudson, Lindale, Premont and Coleman.
6
    The Social Security Act § 218 (a)(1), 42 U.S.C. § 418 (a)(1).
Page 5 - The Commissioner

DETAILS OF THE SEVEN SCHOOL DISTRICTS’ 1-DAY WORKER PROGRAMS

Our review disclosed that the 1-day worker programs at each of the seven school
districts shared many of the same procedures and characteristics. Below is a general
description of how the programs worked.

•   The interested applicants, usually teachers planning to retire from other school
    districts, contacted the hiring school districts and requested application packages.

•   The hiring school district sent out application packages requesting the applicants to
    return their completed packages along with the application/processing fees.

•   The hiring school districts sent out confirmation packages, including a letter stating
    that the purpose of the employment was for the applicants to work their “final day in
    the Texas Teacher Retirement System.”

•   The retiring teachers worked 1 day (usually between 6.5 and 8 hours) at the hiring
    school district in non-professional positions, usually as janitors or office clerks.

•   The individuals were paid between $33 and $60 for their 1 day of employment.

•   The school districts provided the individuals letters stating they were employed by
    the school district in a position covered by Social Security.

•   The individuals presented these letters to SSA as evidence that they should be
    exempt from GPO.

The 1-day worker program at each of the seven school districts is described below.

West Independent School District

We found that West’s employment of its 1-day workers was questionable. In addition,
we found that West did not have the authority to provide Social Security coverage to the
individuals it employed as 1-day workers because its section 218 agreement precluded
it from providing coverage to part-time employees.

   Questionable Employment – West required that applicants pay fees ranging from
$500 to $750 to participate in its 1-day worker program. Whereas, all other individuals
West hired did not pay fees. According to West, it determined the fee amounts based
on what other school districts were charging. In addition, our audit disclosed that the
number of 1-day workers West hired was generally based on the number of interested
applicants rather than an actual need for their services. Finally, West stated it would
not have hired the 1-day workers without collecting application fees.
Page 6 - The Commissioner

In total, West collected $1,069,478 in fees from its 1,860 1-day workers. West
deposited the fees into the district’s general fund, which it used to pay the 1-day
workers, cover the cost of processing the applications, and offset shortfalls in the
school district’s finances. West paid the 1,860 1-day workers approximately $62,000.
From our sample of 95 individuals, West had hired 91 as 1-day workers. All 91 of these
individuals paid fees ranging from $500 to $750. They were paid $33 for 1 day of
employment.

    Lack of Authority to Grant Social Security Coverage - Although West stated it hired
1-day workers for full-time positions, we found there was no intent or expectation by
either party the employment would last longer than 1 day. In fact, all 91 individuals
hired under the program actually worked only 1 day. West’s section 218 agreement
states that part-time positions (defined as 30 hours per week or less) are excluded from
Social Security coverage. Our review disclosed that each of the 91 individuals hired
under West’s 1-day program worked less than the required 30 hours per week.

Hudson Independent School District

Our review disclosed that Hudson’s employment of its 1-day workers was questionable.
In addition, we found that Hudson did not have the authority to provide Social Security
coverage to the individuals it employed as 1-day workers because its section 218
agreement precluded it from providing coverage to part-time employees.

    Questionable Employment – Hudson required that applicants pay between $300 and
$500 to participate in its 1-day worker program. None of the other individuals Hudson
hired paid fees. In addition, our audit disclosed that the number of 1-day workers
Hudson hired was generally based on the number of interested applicants rather than
an actual need for their services. According to Hudson, the number of individuals hired
was only limited by the number it could adequately supervise. We found that Hudson
had as many as 210 workers on the same day. Finally, Hudson stated that, if it had not
collected application fees, the school district would only have hired between 15 and
20 individuals.

In total, Hudson collected approximately $493,000 in fees from its 1,887 1-day workers.
Hudson deposited the fees into the district’s general fund, which it used to pay the
wages of the 1-day workers and a consultant who was responsible for and completed
all necessary personnel actions for hiring the 1-day workers. According to Hudson, the
administrative expense of its 1-day worker program was $82,475. Hudson used the
surplus for capital improvements, such as resurfacing parking lots and purchasing a
modular nurse’s station. The total wages paid to the 1,887 1-day workers was
approximately $78,000. From our sample of 95 individuals, Hudson had hired 85 as
1-day workers. All 85 of these individuals paid between $300 and $500. They were
paid $41 for 1 day of employment.
Page 7 - The Commissioner

    Lack of Authority to Grant Social Security Coverage - Although Hudson stated it
hired 1-day workers for full-time positions, we found there was no intent or expectation
by either party the employment would last longer than 1 day. In fact, all 85 individuals
hired under the program only worked 1 day. Hudson’s section 218 agreement states
that part-time positions (defined as 20 hours per week or less) are excluded from
Social Security coverage. Our review disclosed that each of the 85 individuals hired
under Hudson’s 1-day worker program worked less than the required 20 hours per
week.

Lindale Independent School District

Our review disclosed that Lindale’s employment of its 1-day workers was questionable.
In addition, we found that Lindale did not have the authority to provide Social Security
coverage to the individuals it employed as 1-day workers because its section 218
agreement precluded it from providing coverage to part-time employees.

    Questionable Employment – Lindale required that applicants pay between $100 and
$500 to participate in its 1-day worker program. None of the other individuals Lindale
hired paid fees. In addition, our audit disclosed that the number of 1-day workers
Lindale hired was generally based on the number of interested applicants rather than
an actual need for their services. According to Lindale, the number of individuals hired
was only limited by the number it could reasonably supervise. Finally, Lindale stated
that, if it had not collected application fees, the school district would only have hired
three or four individuals.

Lindale collected $1,335,205 in fees from its 4,313 1-day workers. Lindale deposited
the fees into the district’s general fund, which it used to pay the wages of the 1-day
workers and cover the administrative expense of hiring these individuals. Lindale
officials stated it used the surplus to “improve fund balance” and pay for other general
expenditures. The 4,313 1-day workers were paid approximately $178,000. From our
sample of 95 individuals, Lindale had hired 90 as 1-day workers. All these individuals
paid fees ranging from $100 to $500. They were all paid $41 for 1 day of employment.

    Lack of Authority to Grant Social Security Coverage - Although Lindale stated it
hired 1-day workers to fill full-time positions, we found there was no intent or
expectation by either party that the employment would last longer than 1 day. In fact,
all 90 individuals hired under the program actually worked only 1 day. Lindale’s section
218 agreement states that part-time positions are excluded from Social Security
coverage. Our review disclosed that each of the 90 individuals hired under the school
district’s 1-day worker program worked 8 hours or less.
Page 8 - The Commissioner

Premont Independent School District

We found that Premont’s employment of its 1-day workers was questionable. In
addition, we found that Premont did not have the authority to provide Social Security
coverage to the individuals it employed as 1-day workers because its section 218
agreement precluded it from providing coverage to part-time employees.

   Questionable Employment – Premont required that applicants pay $500 to
participate in its 1-day worker program. None of the other individuals Premont hired
paid fees. In addition, we found the number of 1-day workers Premont hired was
generally based on the number of interested applicants rather than an actual need for
their services. We found that Premont had as many as 502 workers on the same day.
Finally, Premont stated that, if it had not collected application fees, the school district
would not have hired any 1-day workers because they did not have the funds to pay
their wages.

In total, Premont collected $1,052,035 in fees from its 2,186 1-day workers. Premont
deposited the fees into the district’s general fund, which it used to pay the wages of the
1-day workers and cover the administrative expense of hiring them. Premont officials
stated it used the surplus to fund capital improvements in the district. For example,
Premont used the surplus to refurbish the seating and lighting in an auditorium, remodel
a storage building into a distance-learning center, and upgrade air conditioning
systems. The 2,186 1-day workers were paid approximately $87,000. From our
sample of 95 individuals, Premont had hired 90 as 1-day workers, who paid fees of
$500 each. They were all paid $40 for 1 day of employment.

    Lack of Authority to Grant Social Security Coverage - Although Premont stated it
hired 1-day workers to fill full-time positions, we found there was no intent or
expectation by either party the employment would last longer than 1 day. In fact, all
90 individuals hired under the program actually worked only 1 day. Premont’s section
218 agreement states that part-time positions (defined as 20 hours or less per week)
are excluded from Social Security coverage. We found that each of the 90 individuals
hired under Premont’s 1-day worker program worked less than the required 20 hours
per week.

Coleman Independent School District

We found that Coleman’s employment of its 1-day workers was questionable. In
addition, we found that Coleman did not have the authority to provide Social Security
coverage to the individuals it employed as 1-day workers because its section 218
agreement precluded it from providing coverage to part-time employees.

    Questionable Employment – Coleman required that applicants pay between
$100 and $300 in fees to participate in its 1-day worker program. Although the school
district required that all new employees pay fees, Coleman held the checks and
Page 9 - The Commissioner

returned them to the individuals who worked more than 30 days. However, Coleman
immediately deposited the checks from its 1-day workers into its general fund.
In total, Coleman collected $699,498 in fees from its 3,642 1-day workers. Coleman
deposited the fees into the district’s general fund, which was used to pay its operating
expenses, including the wages paid to its 1-day workers. The 3,642 1-day workers
were paid approximately $218,000. From our sample of 95 individuals, Coleman had
hired 94 as 1-day workers. All 94 of these individuals paid between $100 and $300 in
fees. They were all paid $60 for their 1 day of employment.

    Lack of Authority to Grant Social Security Coverage - Although Coleman stated it
hired its 1-day workers to fill full-time positions, we found there was no intent or
expectation by either party the employment would last longer than 1 day. In fact, all
94 individuals hired under the program actually worked only 1 day. Coleman’s section
218 agreement states that part-time positions are excluded from Social Security
coverage. Our review disclosed that each of the individuals hired under Coleman’s
1-day worker program worked 8 hours or less.

Sweeny Independent School District

Our review disclosed that the employment between Sweeny and its 1-day workers was
questionable. Sweeny required that 1-day worker applicants “donate” $500 to the
Sweeny Education Foundation (Foundation). The Foundation is a nonprofit
organization that transfers funds into Sweeny’s general fund as needed. In addition to
the $500 “donation,” the 1-day worker applicants paid a consultant $200 to process
their applications. Other individuals Sweeny hired neither donated to the Foundation
nor paid a consultant $200 to process their applications. We also found the number of
1-day workers Sweeny hired was generally based on the number of interested
applicants rather than an actual need for their services. We found that Sweeny had as
many as 374 workers on the same day. Finally, Sweeny stated that, if it had not
collected the $500 “donation,” the school district would have only hired between 10 and
15 individuals.

In total, Sweeny collected $1,428,703 in fees from its 2,958 1-day workers. These
1-day workers were paid approximately $122,000. From our sample of 95 individuals,
Sweeny had hired 92 as 1-day workers. All 92 of these individuals made a “donation”
of $500 to the Foundation. They were all paid $41 for their 1 day of employment.

Kilgore Independent School District

We found that Kilgore’s employment of its 1-day workers was questionable. Kilgore
required that applicants pay between $250 and $500 in fees to participate in its 1-day
worker program. None of the other individuals Kilgore hired paid fees. In addition, we
found the number of 1-day workers Kilgore hired was generally based on the number of
interested applicants rather than an actual need for their services. According to Kilgore,
the number of individuals hired was only limited by the number it could reasonably
supervise. We found that Kilgore had as many as 97 workers on the same day.
Page 10 - The Commissioner

Finally, Kilgore stated if it had not collected application fees, the school district would
not have hired any 1-day workers.

In total, Kilgore collected $1,289,215 in fees from its 3,402 1-day workers. Kilgore
deposited the fees into its general fund, which it used to pay the wages of the 1-day
workers and cover the administrative expense of hiring these individuals. These 1-day
workers were paid approximately $140,000. From our sample of 95 individuals, Kilgore
hired 87 as 1-day workers. We found that 86 of these individuals paid between
$250 and $500 in fees (1 of the 87 individuals was not required to pay a fee because
she was a Kilgore employee). All 87 individuals were paid $41 for their 1 day of
employment.

SSA MAY HAVE IMPROPERLY GRANTED GPO EXEMPTIONS TO 1-DAY
WORKERS

SSA needs to revise its policies and procedures concerning acceptable proof and
evidence for the last day of employment exemption for GPO. Specifically, we found
that, of the 665 7 individuals in our sample, 170 were receiving spousal benefits. SSA
exempted 168 of them from GPO. Generally, this occurred because SSA relied solely
on documentation provided by the 1-day workers to determine whether they should be
exempt from GPO. This documentation included pay stubs and letters addressed to
SSA from the school districts stating the individual was employed in a position covered
by both the Texas Teachers Retirement System and Social Security on their final day of
                                         8
employment. According to SSA policy, this documentation is considered acceptable
evidence that a GPO exemption applies. However, our review of the practices at the
seven Texas Independent School Districts found that relying solely on this
documentation does not provide SSA sufficient information to determine whether it
should exempt an individual from GPO. To determine whether an individual should be
exempt from GPO, SSA needs to examine the terms and conditions of the employment
and the school district’s section 218 agreement.

ADDITIONAL 1-DAY WORKER PROGRAMS

The allegation we received in October 2005 identified 8 other Texas school districts 9
that hired approximately 3,285 1-day workers. If the same conditions we found at the
7 school districts we reviewed occurred in these 8 school districts, about 3,107 of these
individuals should not be exempt from GPO. Furthermore, we estimate these
3,107 individuals will receive approximately $17.8 million in spousal benefits annually to



7
    Of the 665, 350 had not attained age 62 and therefore were not yet eligible for spousal benefits.
8
    SSA, POMS, GN 02608.102 B1.
9
    Hidalgo, Yoakum, Iraan-Sheffield, Hunt, Ft. Davis, Anahuac, Port Arthur and Somerville.
Page 11 - The Commissioner

which they may not be entitled. Over their lifetimes, they could receive about
                                  10
$353 million in spousal benefits.

Our audit disclosed that the 1-day worker programs were generally limited to State and
local government entities in Texas. To determine the extent to which this could be
occurring in other States, we reviewed SSA’s payment records. This review identified
all spousal beneficiaries for whom SSA noted the State of the pension payments and
who were exempt from GPO based on the last day of employment provision. According
to SSA’s Master Beneficiary Record, 1,303 spouses are exempt from GPO based on
the last day of employment provision. Of these 1,303 individuals, 1,276 (98 percent)
had been employed by a State or local government entity in Texas. We estimate 995 11
of the 1,276 individuals were from the 15 Texas school districts (see Appendix C).

CONCLUSIONS AND RECOMMENDATIONS

We found the employment agreements between the seven Texas school districts and
their 1-day workers were questionable. In addition, five of the school districts did not
have the authority to provide these individuals Social Security coverage. Our review
disclosed that the school districts hired the 1-day workers primarily to generate revenue.
The individuals hired as 1-day workers paid fees far in excess of any wages received.
However, we believe these individuals paid these fees based on an expectation that
they would be provided an exemption from GPO. On average, the GPO exemption is
valued at approximately $113,000 per person over the average life expectancy of an
individual receiving spousal benefits.

Unless SSA changes its policies and procedures for evaluating individuals who are
eligible for GPO exemptions, we estimate 19,212 individuals will receive $110 million in
spousal benefits annually to which they may not be entitled. Over their lifetimes, these
individuals could cost the Social Security Trust Funds about $2.2 billion. In addition, we
estimate 3,107 individuals at 8 other Texas schools districts could improperly receive
$17.8 million in spousal benefits. Over their lifetimes, they could receive $353 million in
spousal benefits.

We recommend that SSA:

1. Develop policies and procedures to ensure individuals employed as 1-day workers
   only receive GPO exemptions if appropriate. For example, SSA should obtain
   documentation to evaluate whether the terms and conditions of the employment are
   valid and whether the school district’s Social Security coverage complies with its
   section 218 agreement.




10
  See Appendix C for a description of our estimation methodology.
11
  This will significantly increase in the next few years given the number of individuals who participated in
the 1-day worker programs at these school districts.
Page 12 - The Commissioner

2. Reexamine the decisions to grant an exemption from GPO for the 168 spouses in
   our sample.

3. Identify and reexamine any decisions to grant exemptions from GPO for spouses in
   the population of 20,248 1-day workers employed by the 7 school districts.

4. Review the 1-day worker programs at the other eight Texas independent school
   districts identified in the allegation to determine whether their 1-day workers
   programs would result in inappropriate GPO exemptions.

AGENCY COMMENTS

SSA agreed, in part, with our recommendations. Specifically, SSA stated it would
ensure that appropriate section 218 agreements are in force for the school districts and
take appropriate action if it identified any problems.

Regarding the questionable employment, SSA stated the payment of a fee does not
affect the validity of the wages unless the fee is considered a reimbursement of wages
paid to the worker. SSA further stated it has no evidence these fees were considered a
reimbursement of wages, nor does the draft OIG report state this is the case.

Regarding Social Security coverage for part-time employees, SSA agreed that many
part-time positions are not covered under section 218 agreements. However, SSA
stated it generally looks to the employers to determine whether the position is full- or
part-time. SSA stated that, in all our cases, the school districts paid the Social Security
taxes, which demonstrated that the school districts determined the positions were
full-time and, therefore, covered under the section 218 agreements.

See Appendix D for the full text of SSA’s comments.

OIG RESPONSE

We are pleased that SSA agreed, in part, with our recommendations. However, we
have the following observations.

•   With respect to the employment questioned in our report, we found substantial
    evidence that SSA needs to review the employment relationship for the very
    reasons SSA cited. Most notable, the fees were, in substance, a return or
    reimbursement of the wages paid. We noted in several instances in our report that
    the school districts did not have the funds to pay the wages or would not have hired
    these individuals without charging a fee. As such, we believe the fees were a
    reimbursement of wages paid.

•   With respect to the Social Security coverage for part-time employees, we believe
    SSA should not rely on these school districts to determine whether the positions
    were covered by Social Security simply because they paid Social Security taxes.
Page 13 - The Commissioner

    Rather, SSA should examine the facts and circumstances of the employment at
    each school district as we outlined in our report, to determine whether the
    employment is full- or part-time and covered under the section 218 agreements.

We also believe SSA’s review needs to consider that these employment practices
primarily occurred in these 15 school districts. As we noted, we estimate 995 of the
1,303 individuals nationwide who are exempt from GPO under the last day of
employment provision were from these 15 school districts. These school districts
almost exclusively hired individuals from other school districts rather than individuals
from their own school district. Of the 665 individuals in our sample, 649 (97.6 percent)
had not been previously employed by the hiring school district.




                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                 Appendix A

Acronyms
Act           Social Security Act
Foundation    Sweeny Education Foundation
GPO           Government Pension Offset
MEF           Master Earnings File
OIG           Office of the Inspector General
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
SSA           Social Security Administration
U.S.C.        United States Code
                                                                                  Appendix B

Scope and Methodology
We obtained a data extract from the Master Earnings File (MEF) of individuals for
whom the seven school districts 1 had reported earnings of $100 or less between
January 1, 2001 and June 30, 2004. In addition, we obtained lists from six of the
school districts 2 that contained identifying information about individuals who participated
in their 1-day worker programs. Using the data extract and information provided by the
school districts, we identified a population of 20,248 individuals who likely participated
in 1-day worker programs during our audit period. From this population, we randomly
selected a sample of 665 individuals (95 from each school district) for review.

To accomplish our objective, we

•     reviewed the applicable sections of the Social Security Act (Act), U.S. Code, and
      Social Security Administration’s (SSA) Program Operations Manual System;

•     interviewed SSA employees from the Dallas Regional Office, Office of Income
      Security Programs and Office of General Counsel;

•     interviewed officials from the following school districts: West, Hudson, Lindale,
      Premont, Coleman, Sweeny and Kilgore;

•     reviewed policies and other documentation related to the 1-day worker programs at
      the 7 school districts; and

•     extracted a random sample of 665 individuals who participated in the 1-day worker
      programs of the 7 school districts (95 individuals in each district). For each sampled
      individual we obtained employment information from the school districts and queries
      from SSA’s MEF and Master Beneficiary Record.

We determined whether the computer-processed data were sufficiently reliable for our
intended use. We conducted tests to determine the completeness and accuracy of the
data. These tests allowed us to assess the reliability of the data and achieve our audit
objectives.




1
    The seven school districts were West, Hudson, Lindale, Premont, Coleman, Sweeny and Kilgore.
2
  Lindale was unable to provide a listing. Therefore, we determined the number of 1-day workers hired by
the school district based on the data in the MEF extract.


                                                   B-1
Our audit was primarily a compliance review and therefore our review of internal
controls was limited to assessing SSA’s policies and procedures concerning acceptable
evidence to support the last day of employment exemption for GPO. We did not review
the internal controls in each of the seven school districts because it was not necessary
to achieve our objective.

We performed audit work related to the seven school districts in the cities of West,
Lufkin, Lindale, Premont, Coleman, Sweeny and Kilgore, Texas and Richmond,
California, between December 2005 and August 2006. The entity audited was SSA’s
Office of Operations under the Deputy Commissioner for Operations. We conducted
our audit in accordance with generally accepted government auditing standards.




                                          B-2
                                                                                  Appendix C

Sampling Methodology and Results
Sample of 1-day workers - We obtained a data extract from the Master Earnings File
(MEF) of individuals for whom the seven school districts 1 reported earnings of $100 or
less between January 1, 2001 and June 30, 2004. In addition, we obtained lists from
six of the school districts 2 that contained identifying information about individuals who
had participated in their 1-day worker programs. Using the data extract and information
provided by the school districts, we identified a population of 20,248 individuals who
likely participated in 1-day worker programs during our audit period. The following table
includes the number of individuals per school district.


                                                  Individuals in the 1-Day
                           School District           Worker Programs
                          West                              1,860
                          Hudson                            1,887
                          Lindale                           4,313
                          Premont                           2,186
                          Coleman                           3,642
                          Sweeny                            2,958
                          Kilgore                           3,402
                          Total                           20,248

We randomly selected 665 individuals, 95 individuals from each school district, for
review. For each sampled individual, we obtained employment information from the
school districts to determine whether the employment was valid and whether the school
districts had the authority (per their section 218 agreements) to provide Social Security
coverage to the individual.

Of the 665 individuals in our sample, we found 629 (95 percent) should not be exempt
from GPO based on the last day of employment provision. Projecting our sample
results to the population, we estimate that 19,212 individuals will receive $110 million in
spousal benefits annually to which they may not be entitled. Over their lifetimes, they
will potentially receive about $2.2 billion in spousal benefits. The following tables
provide the details of our sample results and statistical projections.




1
    The seven school districts were West, Hudson, Lindale, Premont, Coleman, Sweeny and Kilgore.
2
  Lindale was unable to provide a listing. Therefore, we determined the number of 1-day workers hired by
the school district based on the data in the MEF extract.


                                                   C-1
Table 1 – Number of Individuals Who May Not Be Eligible for GPO Exemptions


      School         Sample         Ineligible                       Point         Lower         Upper
      District        Size        Individuals Population           Estimate        Limit        Limit
    West                     95             91             1,860        1,782
    Hudson                   95             85             1,887        1,688
    Lindale                  95             90             4,313        4,086
    Premont                  95             90             2,186        2,071
    Coleman                  95             94             3,642        3,604
    Sweeny                   95             92             2,958        2,865
    Kilgore                  95             87             3,402        3,116
    Totals                  665            629            20,248       19,212        18,925        19,497
All statistical projections are at the 90-percent confidence level.

Table 2 – Annual Estimate of Spousal Benefits Paid to Individuals Who May Not
Be Eligible for GPO Exemptions


                 School             Point         Average Annual                  Annual
                 District         Estimate       Spousal Benefits 3              Estimate
           West                       1,782                        $5,736            $10,221,552
           Hudson                     1,688                        $5,736             $9,682,368
           Lindale                    4,086                        $5,736            $23,437,296
           Premont                    2,071                        $5,736            $11,879,256
           Coleman                    3,604                        $5,736            $20,672,544
           Sweeny                     2,865                        $5,736            $16,433,640
           Kilgore                    3,116                        $5,736            $17,873,376
           Totals                    19,212                        $5,736           $110,200,032




3
    We based our estimate on the average monthly spousal benefit of $478 paid to beneficiaries in 2004.


                                                    C-2
Table 3 – Lifetime Estimate of Spousal Benefits Paid to Individuals Who May Not
Be Eligible for GPO Exemptions

                                   Average Annual             Average Life          Spousal Benefits
    School           Point            Spousal                 Expectancy               Paid Over
    District       Estimate           Benefits                 at Age 62 4              Lifetime
    West                   1,782                  $5,736                   19.82            $202,591,161
    Hudson                 1,688                  $5,736                   19.82            $191,904,534
    Lindale                4,086                  $5,736                   19.82            $464,527,207
    Premont                2,071                  $5,736                   19.82            $235,446,854
    Coleman                3,604                  $5,736                   19.82            $409,729,822
    Sweeny                 2,865                  $5,736                   19.82            $325,714,745
    Kilgore                3,116                  $5,736                   19.82            $354,250,312
    Totals                19,212                  $5,736                   19.82          $2,184,164,635



Estimate of Additional 1-Day Workers at Remaining Texas School Districts Identified in
the Allegation – Our sample results at the 7 school districts found that 629 of
665 individuals (95 percent) who participated in the 1-day worker program may not be
eligible for a GPO exemption. We applied this percentage to the 3,285 individuals
identified in the allegation for the remaining 8 school districts and estimate an additional
3,107 individuals should not be exempt from GPO. These 3,107 individuals would
receive about $17.8 million annually and $353 million over their lifetimes. The following
table provides the details of our estimate.

Table 1 – Estimate of Spousal Benefits Paid to Individuals at Remaining Eight
School Districts

                                                             Sample                  Remaining 8
                                                           Results for 7           School Districts
                                                             School                Identified in the
                       Description                           Districts                Allegation
      Individuals in the 1-day worker program                            665                      3,285
      Number of Individuals Who May
      Not Be Eligible for GPO Exemption                                  629                     3,107
      Percent Not Eligible                                             94.58                     94.58
      Average Annual Spousal Benefits                                                           $5,736
      Annual Estimate                                                                      $17,821,752
      Average Life Expectancy at Age 62                                                          19.82
      Spousal Benefits Paid Over Lifetime                                                 $353,227,125




4
    We based our estimate on the average life expectancy of 19.82 years for an individual at age 62.


                                                     C-3
Sample of Spousal Beneficiaries Currently Exempt from GPO – We obtained a data
extract from SSA’s Master Beneficiary Record of all spousal beneficiaries for whom
SSA identified the State of the pension payments and who are exempt from GPO
based on the last day of employment provision. From this, we identified a population of
1,303 spouses, of which 1,276 were previously employed by a State or local
government entity in Texas. From the 1,276 individuals, we randomly selected 100 for
review and found that 78 were previously employed by the 15 Texas school districts.
Projecting our sample results to our population, we estimate that 995 individuals were
previously employed by the 15 Texas school districts. These school districts almost
exclusively hired individuals from other school districts rather than individuals from their
own school district. Of the 665 individuals in our sample, 649 (97.6 percent) had not
been previously employed by the hiring school district. The following tables provide the
details of our sampling results and statistical projections.

Table 1 – Population and Sample Size

             Description                     Population                   Sample Size
 Spouses Exempt from GPO Based on
 the Last Day of Employment Provision              1,276                      100

Table 2 – Sample Results and Statistical Projections

                  Description                               Number of Cases
 Sample Results                                                         78
 Point Estimate                                                        995
 Lower Limit                                                            899
 Upper Limit                                                          1,076
All statistical projections are at the 90-percent confidence level.




                                             C-4
                  Appendix D

Agency Comments
                                             SOCIAL SECURITY

MEMORANDUM


Date:      December 15, 2006                                                    Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye                /s/
           Chief of Staff


Subject:   Office of the Inspector General (OIG) Draft Report, “Government Pension Offset
           Exemption for Texas School Districts’ Employees” (A-09-06-26086)-- INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report
           content and recommendations are attached.

           Let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                     D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “GOVERNMENT PENSION OFFSET EXEMPTION FOR TEXAS
SCHOOL DISTRICTS’ EMPLOYEES” (A-09-06-26086)


Thank you for the opportunity to review and provide comments on this draft report.

The Government Pension Offset (GPO) reduces Social Security spousal benefits by two-
thirds of the amount of the government pension. Prior to July 1, 2004, Social Security
beneficiaries could be exempt from GPO if, on “the last day” of employment, they were
in a position covered by both Social Security and the government pension plan. To meet
this exemption, some Texas Teacher’s Retirement System (TRS) participants who had
worked their careers in employment not covered by Social Security, transferred to a
position that was covered by both TRS and Social Security just prior to retirement, often
for only one day of employment. When this application of the last day test came to the
attention of Congress, the Social Security Administration (SSA) advised that, while
questionable from a public policy perspective, the application was legally supported.
Congress ended the last day test in the Social Security Protection Act (SSPA),
substituting a requirement that an individual work his or her last 60-months in covered
employment in order to be eligible for the GPO exemption.

The draft OIG report indicates that SSA misapplied the law by affording the “last day”
exemption to certain Texas TRS participants who paid a fee and worked their last day of
employment in other school districts in positions for which Social Security taxes were
paid. However, the legislative history of the SSPA clearly indicates that Congress knew
how SSA was interpreting the law and administering the “last day” exemption.
Moreover, the fact that Congress felt compelled to take legislative action to end the
practice indicates that it recognized the limits of the Agency’s discretion under the former
statutory language. This issue was raised to Congress in an August 2002 Government
Accountability Office (GAO) report entitled “Social Security Administration: Revision to
the Government Pension Offset Should be Considered.” That report acknowledged that
individuals who paid a fee to obtain their one-day job in Social Security covered
employment met the requirements for the “last day” exemption to the GPO provision as
SSA was administering the provision. This report had no findings, either stated or
implied, that indicated that SSA was not properly applying the “last day” exemption. In
fact, the report concluded that, to address the issue of potential abuses resulting from the
“last day” exemption, Congress needed to consider revising the Social Security Act to
extend the requirement for covered employment for a longer period of time.

The Committee on Ways and Means report on the 2004 legislation that ended the “last
day” exemption to the GPO cites GAO testimony that the exemption “allows a select
group of individuals with a relatively small investment of work time and only minimal
Social Security contributions to gain access to potentially many years of full Social
Security spousal benefits.” This testimony, as well as GAO’s 2002 report, led to
thorough investigations by Congress and SSA. Congressional interest in this issue was
evidenced by a hearing that was held in May 2003.


                                            D-2
The issue of whether the “last day” exemption to GPO should be retained or substantially
modified was debated on the floor of the House of Representatives. Views on both sides
of the issue were expressed -- that is, that the “last day” exemption should be retained
and, alternatively, that this exemption was a loophole that was both costly and
inappropriate. Throughout the time GAO was reporting to Congress, SSA was
simultaneously communicating and working with members of the Social Security
Subcommittee to seek a legislative change and to correct the loophole. Ultimately,
Congress determined that legislation was necessary to close the loophole. The final
legislation (section 418 of the SSPA) replaced the “last day” exemption with a
requirement that, to be exempt from GPO, the individual must work in employment
covered by Social Security for at least 60 months before retirement from a State or local
government job.

In developing our existing policy, we reviewed (1) whether a bona fide employment
relationship existed, even though teachers paid a processing fee that in many cases
exceeded the wages they expected to earn; and (2) whether teachers employed for as little
as one day met the requirements of those section 218 agreements that specifically exclude
employees in part-time positions from Social Security coverage.

Section 210(j)(2) of the Social Security Act defines an employee as “… any individual
who, under the usual common law rules applicable in determining the employer-
employee relationship, has that status of an employee.” Pursuant to 20 CFR 404.1007(a),
a common-law relationship exists if the employer can tell the employee “what to do and
how, when, and where to do it;” i.e., the employer controls the employee’s work. The
fact that some workers paid the employer a fee for processing their job applications did
not change the fact that the employer controlled the conditions of employment. As an
employer, the school district could designate when and where the employees worked, in
what position they worked, could withhold pay for nonperformance, and could fire them.
As a result, we determined that the common law test was met and an employment
relationship existed, regardless of whether a fee had been paid

The fact that a worker pays a fee to work does not impact the validity of the wages
received or the underlying employee-employer relationship, as long as the fee is not
considered a reimbursement of wages paid to the worker. We have no evidence of any of
these fees being considered as such, nor does the draft OIG report state that this is the
case.

With regard to the part-time status issue, it is true that many part-time positions are not
covered under section 218 agreements in Texas. However, it is also true that full-time
positions exist that may be filled on a part-time basis. In evaluating whether a position is
covered under a section 218 agreement in Texas, it is the status of the position, not the
status of the person who fills it, that is the determining factor. For example, if the
position is one requiring a 40-hour workweek, individuals filling that position would have
Social Security coverage, even if the position is filled by five individuals each working
eight hours. Conversely, if the position requires a 20-hour work week and part-time
positions are not covered by the section 218 agreement, then the individuals in that


                                            D-3
position would not be covered by Social Security whether it is five individuals each
working four hours or one individual working 20 hours. We generally look to the
employer to determine the position to which the employee was assigned and whether
Social Security taxes are payable. In all of these cases, the employer paid the Social
Security taxes, demonstrating its determination that the positions being filled were full-
time positions and, hence, covered under the section 218 agreement.

In addition, pension contributions for this work were made to the Texas Teachers
Retirement System for these employees. Based on our understanding of the applicable
pension rules, the contributions would not have been made had these employees been
working in temporary (part-time) positions.

In the past, OIG has been supportive of SSA’s implementation of the “last day”
exemption to the GPO. Specifically, in response to an inquiry about the validity of one-
day employment in one of the school districts, OIG noted that it was within SSA’s
purview to determine whether a bona fide employment relationship existed and indicated
that additional work by OIG would be redundant in light of the work done by SSA and
GAO, along with the elimination of the one-day test. It is not clear why OIG’s views on
this matter have changed.

Our responses to the specific recommendations are provided below:

Recommendation 1

SSA should develop policies and procedures to ensure individuals employed as one-day
workers only receive GPO exemptions if appropriate. For example, SSA should obtain
documentation to evaluate whether the terms and conditions of the employment are valid
and whether the school district’s Social Security coverage complies with its section
218 agreement.

Response

We agree in part with this recommendation. Our policies regarding the “last day”
exemption to the GPO are based on the applicable statute in effect before enactment of
the Social Security Protection Act of 2004. These policies are appropriate and have been
reviewed and approved by our Office of General Counsel. However, we agree to check to
ensure that an appropriate section 218 agreement is in force for the school district.

Recommendation 2

SSA should reexamine the decisions to grant an exemption from GPO for the
168 spouses in our sample.




                                            D-4
Response

We agree to review the section 218 agreement for the seven school districts where the
168 spouses worked and, if we identify problems in this review, we will take appropriate
action.

Recommendation 3

SSA should identify and reexamine any decisions to grant exemptions from GPO for
spouses in the population of 20,248 one-day workers employed by the seven school
districts.

Response

As stated in the response to recommendation 2, we agree to review the section
218 agreements for these seven school districts and, if we identify problems in this
review, we will take appropriate action.

Recommendation 4

SSA should review the one-day worker programs at the other eight Texas independent
school districts identified in the allegation to determine whether their one-day workers
programs would result in inappropriate GPO exemptions.

Response

We agree to review the section 218 agreements for the other eight school districts
identified in the OIG review and, if we identify problems in this review, we will take
appropriate action.




                                            D-5
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division, (510) 970-1739

   Joseph Robleto, Audit Manager, (510) 970-1737

Acknowledgments

In addition to those named above:

   Timothy E. Meinholz, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-09-06-26086.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
